No. 20-148

In the
Supreme Court of the United States
MARVIN WASHINGTON, ET AL.,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Respondents,
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
BRIEF OF AMICUS CURIAE
INTERNATIONAL CANNABIS BAR
ASSOCIATION IN SUPPORT OF THE
PETITION FOR A WRIT OF CERTIORARI
PAUL P. JOSEPHSON
DUANE MORRIS LLP
1940 Route 70 East
Cherry Hill, NJ 08003
(856) 874-4235

ppjosephson@duanemorris.com

ROBERT M. PALUMBOS
Counsel of Record
DUANE MORRIS LLP
30 S. 17th Street
Philadelphia, PA 19103
(215) 979-1111

rmpalumbos@duanemorris.com

Counsel for Amicus Curiae
September 14, 2020

i
QUESTIONS PRESENTED
1.

DID THE SECOND CIRCUIT ERR IN
REQUIRING
EXHAUSTION
OF
ADMINISTRATIVE REMEDIES ONCE IT
RECOGNIZED THE HISTORY OF DELAY BY
THE DEA AND THE PROSPECT OF
IRREPARABLE HARM TO PETITIONERS?

2.

IS
EXHAUSTION
OF
THE
DEA
SCHEDULING PROCESS FUTILE BECAUSE
THE DEA REFUSES TO ACKNOWLEDGE
THE MEDICAL VALUE OF CANNABIS
ESTABLISHED BY THE DEPARTMENT OF
HEALTH AND HUMAN SERVICES AND
ACCEPTED BY THE U.S. PATENT AND
TRADEMARK OFFICE?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED........................................ i
TABLE OF AUTHORITIES ...................................... iii
INTERESTS OF THE AMICUS .................................1
SUMMARY OF THE ARGUMENT ............................8
STATEMENT OF FACTS/HISTORY BELOW ........10
1.

PETITIONERS’ CLAIMS ....................10

2.

THE DEA’S HISTORY OF
DELAY AND DENYING PRIOR
PETITIONS ..........................................11

REASONS FOR GRANTING THE PETITION........13
I.

REQUIRING
PETITIONERS
TO
EXHAUST
ADMINISTRATIVE
REMEDIES IGNORES THIS COURT’S
PRECEDENT IN MCCARTHY V.
MADIGAN .......................................................13

II.

CERTIORARI SHOULD BE GRANTED
TO
RESOLVE
CONFLICTING
POLICIES AND IMPLEMENTATIONS
BY THREE FEDERAL DEPARTMENTS ......25

CONCLUSION ..........................................................28

iii
TABLE OF AUTHORITIES
CASES
Albuquerque Pub. Sch. v. Sledge,
2019 WL 3755954 (D.N.M. Aug. 8, 2019) ............. 23
Brown v. Woods Mullen Shelter/Bos. Pub. Health
Comm’n., 2017 WL 4287909 (Mass. Super. Aug.
28, 2017) ................................................................ 23
Gibson v. Berryhill,
411 U.S. 564 (1973) ............................................... 24
McCarthy v. Madigan,
503 U.S. 140 (1992) ....................................... passim
Nation v. Trump,
2020 WL 3410887 (9th Cir. June 22, 2020).......... 23
Rehaif v. U.S.,
139 S.Ct. 2191 (2019) ............................................ 23
Safe Streets Alliance v. Hickenlooper,
859 F.3d 865 (10th Cir. 2017) ............................... 24
United States v. McIntosh,
833 F.3d 1163 (9th Cir 2016) .................................. 5
CONSTITUTION AND STATUTES
U.S. Const. Art. I, § 8, cl. 8 ........................................ 25
18 U.S.C. § 812 .......................................................... 14

iv
Controlled Substances Act,
21 U.S.C. §§ 811, et seq. ................................ passim
Consolidated and Further Continuing Appropriations
Act, 2015, Pub. L. No. 113-235, 128 Stat. 2130
(2014) ....................................................................... 5
Consolidated Appropriations Act, 2016, Pub. L. No.
114-113, 129 Stat. 2242 (2015) ............................... 5
Consolidated Appropriations Act, 2017, Pub. L. No.
115-31 (2017) ........................................................... 5
Consolidated Appropriations Act, 2018, Pub. L. No.
115-141, 132 Stat. 445 (2018). ................................ 5
OTHER AUTHORITIES
Americans for Safe Access, State of the State Report,
(2020), https://www.safeaccessnow.org/sos ............ 2
Denial of Petition to Initiate Proceedings to
Reschedule Marijuana, 81 Fed. Reg. 53767
(Aug. 12, 2016)....................................................... 11
Marijuana Policy Project, Medical Marijuana
Patient Numbers (May 28, 2020),
https://www.mpp.org/issues/medicalmarijuana/state-by-state-medical-marijuanalaws/medical-marijuana-patient-numbers/ ............ 2

v
C. White, Why Marijuana Assets May Not Be
Administered in Bankruptcy,
https://www.justice.gov/ust/file/abi_201712.pdf/do
wnload...................................................................... 6

1
INTERESTS OF THE AMICUS
Founded in 2015, the International Cannabis
Bar Association (“INCBA”) is a membership
organization of over 700 attorneys that advances the
interests of its members and thousands of other
attorneys across the United States and other
jurisdictions. INCBA is the dba of Canbar Association,
a nonprofit corporation organized under the California
Nonprofit Mutual Benefit Corporation Act and selfcertified as a 501(c)(6) organization under the Internal
Revenue Code. 1
INCBA’s mission is to improve access to quality
legal services for the cannabis industry and to
facilitate the practice of law for attorneys serving
patients and companies who serve them. INCBA
provides premier educational events, maintains an
international network of the most experienced legal
counsel in cannabis, and advocates for the legal
profession.
INCBA’s members provide a wide range of legal
advice and services to individuals, businesses, and
nonprofits interested in state-sanctioned cannabis
1 No party authored this amicus brief in whole or in part,
and no party or its counsel made a monetary contribution
intended to fund the preparation or submission of the brief.
Counsel for the Petitioners and Respondents received timely
notice and have each consented to INCBA filing this brief in
support of the Petition for a Writ of Certiorari.

2
activities. Medical cannabis in one form or another has
been legalized by 47 states. It is estimated that threeand-one-half million Americans presently use
cannabis for therapeutic purposes. 2
INCBA’s
members include litigators, transactional attorneys,
and regulatory professionals. They practice law in
areas that include, among others, securities, finance,
corporate, real estate, intellectual property,
commercial
transactions,
banking,
antitrust,
employment,
environmental,
immigration,
bankruptcy and state receivership, insurance, and
tax.
INCBA’s members represent patients presently
registered in state-authorized medical cannabis
programs, seeking registration in such programs, or
seeking to authorize such programs in the 17 states
that have not yet implemented a robust medical
cannabis program. INCBA members advise the
businesses licensed to serve medical patients and the
adult use market pursuant to state-authorized
cannabis programs. INCBA’s members advise the
many physicians, researchers and their medical and
educational institutions who would otherwise study
the medical efficacy and safety of cannabis, but for its
Schedule I status.

2 Americans for Safe Access, State of the State Report,
(2020), https://www.safeaccessnow.org/sos; Marijuana Policy
Project, Medical Marijuana Patient Numbers (May 28, 2020),
https://www.mpp.org/issues/medical-marijuana/state-by-statemedical-marijuana-laws/medical-marijuana-patient-numbers/

3
INCBA members represent the thousands of
banks, accountants, insurance companies, and other
service providers that serve the state-authorized
cannabis industry. INCBA’s attorneys advise and
assist them in meeting their obligations under federal
and state tax laws, state regulatory regimes, sovereign
nation rules, and the rules of the many federal
agencies that require some form of civil compliance
from the cannabis industry, including, among others,
the Department of Treasury (“Treasury” or
“FinCEN”), the Department of Agriculture, the Food
& Drug Administration (“FDA”), the Small Business
Administration (“SBA”), and the Patent and
Trademark Office (“USPTO”).
It is critical to INCBA’s members, and to all
attorneys advising clients on cannabis issues, that this
Court grant certiorari and once and for all decide the
constitutionality of the Controlled Substances Act, 21
U.S.C. §§ 811, et seq. (“CSA”) with respect to cannabis.
INCBA’s interest in this case arises out of its
members’ ethical obligations to zealously represent
their clients in a shifting legal landscape devoid of
clarity.
INCBA’s members, and indeed all lawyers
advising patients and companies on cannabis laws,
must navigate the tensions between federal and state
laws. States, one after another, have enacted laws
authorizing the cultivation, sale, and possession of
cannabis. These states seek to replace illicit, black
market activity with legal, regulated markets that
ensure patient safety, transparency, taxation, and
community reinvestment.

4
The complex maze of federal, state, county, and
municipal laws make cannabis the most scrutinized
agricultural commodity in the world. INCBA members
must navigate all cannabis laws while representing
their clients and also maintaining their oaths to
uphold the Constitution, laws of the United States,
and professional ethics obligations to clients.
As explained below, Congress prohibits the
Drug Enforcement Agency (“DEA”) from enforcing the
CSA directly against the state-licensed cannabis
industry. However, the DEA and other federal
agencies regularly invoke the Schedule I status of
cannabis to discourage hospitals and universities from
researching cannabis upon pain of losing federal
funding, to preclude veterans from consuming
cannabis if they wish to receive benefits from the
Department of Veterans Affairs, and to preclude the
SBA from assisting businesses that serve the cannabis
industry. For example, many companies discovered
they were ineligible for Paycheck Protection Program
(“PPP”) relief because they worked in or with the
cannabis industry. Concurrently, many states have
deemed cannabis businesses “essential” so they can
continue to serve patients during the COVID
pandemic.
Since 2014, Congress has expressly prohibited
the DEA and the Department of Justice (“DOJ”) from
using appropriated funds to block states from
implementing laws that authorize the use,
distribution, possession, or cultivation of medical
marijuana. (“Funding Riders,” also commonly referred

5
to as the “Joyce-Blumenauer Amendment”). 3
See United States v. McIntosh, 833 F.3d 1163, 1178
(9th Cir 2016) (prohibiting prosecution of individuals
engaged in activity authorized by state marijuana
laws).
The Funding Riders were enacted on the heels
of the DOJ’s 2013 “Cole Memorandum” that
recognized state legalization of cannabis and outlined
eight key priorities for enforcement of the CSA against
cannabis-related conduct. Shortly after, the Treasury
Department authorized banks to serve the cannabis
industry through a memorandum issued by FinCEN,
conditioned on banks ensuring compliance with the
Cole Memorandum. Though the Cole Memorandum
was later rescinded by the Attorney General in 2018,
the FinCEN Memorandum remains in effect to this
day.
As a result of these federal developments,
vibrant state-level cannabis economies have
flourished and attracted billions of dollars in
investment. However, the state cannabis regulatory
regimes include comprehensive regulation that is
incongruent with any existing schedule in the CSA.
Regardless of whether or how the DEA reschedules
3
See
Consolidated
and
Further
Continuing
Appropriations Act, 2015, Pub. L. No. 113-235, §538, 128 Stat.
2130, 2217 (2014); Consolidated Appropriations Act, 2016, Pub.
L. No. 114-113, §542, 129 Stat. 2242, 2332-33 (2015);
Consolidated Appropriations Act, 2017, Pub. L. No. 115-31, §537
(2017); Consolidated Appropriations Act, 2018, Pub. L. No. 115141, §538, 132 Stat. 445 (2018).

6
cannabis, it would necessarily interfere with
implementation of state-level regulation in direct
contravention of the Funding Riders and the Tenth
Amendment of the United States Constitution.
The CSA also interferes with the rational and
consistent implementation of federal laws in both
federal courts and agencies. The Executive Office for
U.S. Trustees maintains that individuals and
companies deriving income from state-authorized
cannabis activities may not have access to the nation’s
bankruptcy courts because of the Schedule I status of
cannabis. C. White, Why Marijuana Assets May Not
Be
Administered
in
Bankruptcy,
https://www.justice.gov/ust/file/abi_201712.pdf/downl
oad. Yet, these same litigants have access to and may
be summoned into federal courts notwithstanding the
CSA and the Schedule I status of cannabis. Choice of
law principles under the Erie Doctrine could require
that federal courts enforce cannabis-related contracts
according to state law, the substance of which remains
federally illegal. The Schedule I status of cannabis
also means that attorney-client privilege could be
pierced under the crime-fraud exception to federal
evidentiary rules.
Most incongruously, while the DEA has refused
to reschedule cannabis based on an asserted lack of
scientific evidence, the USPTO acknowledges the
science behind the medical benefits of cannabis and
grants patent protection for cannabis strains,
products, and methods of production. USPTO has
issued a patent to the Department of Health and
Human Services without regard to the CSA. But the

7
Trademark Department of the USPTO continues to
refuse to issue trademark protection to certain
categories of goods and services based on the
differentiation between industrial hemp under the
2018 Farm Bill and marijuana under the CSA.
The Federal Government’s approach to stateauthorized cannabis – which flows directly from the
Schedule I status of cannabis under the CSA –
adversely impacts INCBA’s members and their clients
daily.
Attorneys are faced with the virtually
impossible task of explaining a contradictory body of
federal law completely at odds with state laws and the
medical reality that cannabis has been shown to aid
patients with a wide range of debilitating and lifethreatening symptoms. The stakes are not
inconsequential. Criminal penalties under the CSA
are severe. Schedule I status means that statelicensed cannabis companies and noncannabis
businesses that work with them are potentially liable
under civil RICO statutes, notwithstanding that DOJ
cannot prosecute a criminal RICO case against them.
Similarly, attorneys face the possibility of discipline
under professional ethics rules, jeopardizing their
clients’ legal privileges when rendering advice, and
forfeiting malpractice coverage for their acts and
omissions – all because of because of the
constitutionally repugnant CSA.
INCBA members are directly affected by the
Schedule I status of cannabis because their clients
require legal advice to comply with the myriad and
complex rules and regulations governing stateauthorized cannabis programs, as well as federal tax,

8
employee safety, and other federal laws of general
applicability to most businesses. But in so advising
clients, INCBA attorneys face the ethical dilemma of
advising clients who are acting in violation of federal
law. See American Bar Association, Model Rules of
Professional Conduct, Rule 1.2 (d) (prohibiting
attorneys from counseling a client to engage in
criminal conduct). Consequently, while most INCBA
members and their firms are willing to advise these
clients, a chilling effect persists. Many other lawyers
still decline or limit representation of these
individuals and businesses because of the CSA.
SUMMARY OF THE ARGUMENT
The Second Circuit erred in requiring
Petitioners to exhaust their administrative remedies
by petitioning the DEA to reschedule cannabis before
they can obtain judicial review of their constitutional
claims.
This Court observed in McCarthy v. Madigan,
503 U.S. 140, 146 (1992) that notwithstanding
prudential considerations, “federal courts are vested
with a ‘virtually unflagging obligation’ to exercise the
jurisdiction given to them.” (citations omitted). Thus,
courts “must balance the interest of the individual in
retaining prompt access to a federal judicial forum
against countervailing institutional interests favoring
exhaustion.” Id. Administrative remedies need not be
pursued if the litigant’s interests in immediate judicial
review outweigh the government’s interests in
efficiency or administrative autonomy.

9
Petitioners’ interests grossly outweigh those of
the government. Petitioners are suffering immediate
and ongoing irreparable constitutional injuries. The
DEA scheduling process cannot provide Petitioners
relief from unconstitutional actions. The DEA is a law
enforcement agency, not a court for constitutional
claims. Consigning Petitioners to the DEA
administrative process for reclassification is futile.
Since the CSA’s enactment in 1970, the DEA has
rejected or denied 10 cannabis reclassification
petitions and taken, on average, nine years to do so.
Most recently, in July 2016, the DEA denied
rescheduling petitions filed by an individual in 2009
and by the Governors of Washington and Vermont in
2011, after six and one half years of delay.
Promptly on the heels of the DEA’s 2016
denials, Petitioners brought this constitutional
challenge to the CSA and to the DEA’s
implementation of the CSA. With these denials, the
DEA established a classic Catch-22 situation:
rescheduling has been denied time and again because
the DEA claims there is a lack of research
demonstrating the medical efficacy and safety of
cannabis. But because of the Schedule I status of
cannabis, it is virtually impossible to undertake that
research without violating the CSA.
The Second Circuit ignored McCarthy and erred
in ruling as a prudential matter that Petitioners
should nevertheless undertake the same petitioning
process that has resulted in 10 denials and rejections
already, including two that DEA denied mere months
before the instant Complaint was filed.

10
It is hard to conceive of a more apt example of
administrative futility than sending Petitioners back
to the DEA for relief it cannot provide. Judicial
deference to the DEA is perpetuating injury to the
Petitioners and all who are compliant participants in
state-authorized programs. The agency has made
clear its position, time and again. The People have
spoken, and it is time for this Court to consider the
constitutional merits.
STATEMENT OF FACTS/HISTORY BELOW 4
1.

PETITIONERS’ CLAIMS

The Second Circuit’s characterization that
Petitioners seek to have DEA reschedule cannabis is
clear error. Petitioners’ Complaint avoids any request
for rescheduling and instead seeks judgment
“declaring that the CSA … is unconstitutional … [and]
a permanent injunction … restraining Defendants
from enforcing the CSA, as it pertains to cannabis” on
the grounds that is unconstitutional. Petitioners claim
the CSA is unconstitutional with regard to cannabis
because it violates the Due Process Clause of the Fifth
Amendment, an assortment of protections guaranteed
by the First, Ninth and Tenth Amendments, plus the
fundamental liberty right to travel, the right to equal
protection, and the right to substantive due process.
In addition, they seek a declaration that in enacting

4 INCBA adopts and incorporates Petitioners’ Statement
of Facts and Appendix.

11
the CSA as it pertains to cannabis, Congress violated
the Commerce Clause.
The Second Circuit did recognize that this case
presents at least one unusual and distinguishing
feature compared to past challenges to the DEA’s
classification of cannabis as a Schedule I drug: “among
the Plaintiffs are individuals who plausibly allege that
the current scheduling of marijuana poses a serious,
life-or-death threat to their health.” (App.4a).
Though not recognized below, and despite the
fact Petitioners pled and argued the point, there is
another distinction from past litigation that factors
against requiring Petitioners to exhaust their
remedies by filing yet another a futile scheduling
petition with the DEA: the Petitioners filed their
Complaint promptly after the DEA denied two
rescheduling petitions, including one filed by the
Governors of Washington and Vermont.
2.

THE DEA’S HISTORY OF DELAY AND
DENYING PRIOR PETITIONS

The DEA’s 2016 denials were based on one
simple overarching finding: there are few, if any,
clinical trials that have studied the efficacy, medical
benefits, and safety of cannabis. See Denial of Petition
to Initiate Proceedings to Reschedule Marijuana, 81
Fed. Reg. 53767 (Aug. 12, 2016).
The DEA’s conclusion was unsurprising and
indeed, preordained: as explained within, because of
the classification of cannabis as a Schedule I drug, it

12
is virtually impossible for high-quality research to be
conducted.
Petitioners pled with specificity the futile and
dilatory nature of the DEA’s rescheduling
proceedings. Amended Complaint, ¶¶ 354-370.
Petitions to reschedule cannabis have been filed
continuously with the DEA since shortly after the CSA
was enacted, each of which the DEA denied after years
of delay:
•

The first petition, filed in 1971, was
denied after 8 years’ consideration, in
1979.

•

The next petition, filed in 1972, was
denied after 20 years of proceedings, in
1992.

•

The next petition accepted by DEA, filed
in 1995, was denied after 5 1/2 years, in
2001.

•

The next petition, filed in 2002, was
denied after 8 ¾ years, in 2011.

•

The latest two petitions, filed in 2009 and
2011, were denied after 6 ½ years, on the
same day in 2016.

(App. 249-54a).
Significantly, the Second Circuit held that the
CSA does not mandate that Petitioners exhaust

13
remedies as a precondition to suit. (App.8a)
(“Although the CSA does not expressly mandate the
exhaustion of administrative remedies, our precedents
indicate that it generally be required as a prudential
rule of judicial administration.”) The court also
expressly recognized the “precarious position of
several of the Plaintiffs … and their argument that the
administrative process may not move quickly enough
to afford them adequate relief.” (App.9a). However, it
erred in requiring exhaustion and offering to take
action only “should the DEA not act with dispatch.” Id.
As a result, the Second Circuit did not reach or express
any view on the merits of Petitioners’ constitutional
claims – “that is, whether marijuana should be listed
or not.” Id.
REASONS FOR GRANTING THE PETITION
I.

REQUIRING
PETITIONERS
TO
EXHAUST ADMINISTRATIVE REMEDIES
IGNORES THIS COURT’S PRECEDENT
IN MCCARTHY V. MADIGAN.

In McCarthy, this Court recognized that
notwithstanding the prudential considerations that
often militate in favor of the exhaustion of
administrative remedies, the federal courts are not to
shirk their “virtually unflagging obligation” to
exercise the jurisdiction vested in the judiciary.
Nothing in the CSA mandates that Petitioners
petition the DEA to reschedule cannabis. On this
point, both courts below agreed.

14
Nevertheless, the Second Circuit’s decision
ignores the core analysis required by McCarthy –
whether the individual’s interests in securing prompt
judicial review of its claims outweigh the institutional
interests of the administrative agency. Instead, it
improperly focused on its perception of Congressional
intent inferred by the rescheduling process set forth in
the CSA at 18 U.S.C. § 812. The Second Circuit held
that Congress’ enactment of the administrative
rescheduling process expressed its intent that the
courts should defer jurisdiction until the agency was
afforded the chance to complete its administrative
review.
After fifty years of DEA denials, the courts owe
no deference to administrative process when
presented with concrete harm to Petitioners’ core life
and liberty interests. Further, if Congress had
intended such deference, it would have expressly
stated exhaustion was necessary before judicial relief
could be sought. It did not.
The Second Circuit’s decision must be reversed
because it ignored McCarthy’s command and
relegated Petitioners to a lengthy, futile and biased
administrative process that is entirely incapable of
affording them the relief they seek – a declaration that
the CSA is unconstitutional and an injunction
prohibiting its enforcement as regards cannabis.
McCarthy held exhaustion is not required in at
least three broad sets of circumstances where
individual interests weigh heavily against exhaustion.
First, exhaustion is not required where to do so would

15
be futile, as where the agency is biased or has
otherwise predetermined the issue. Second is where
the agency is unable to grant relief because it lacks the
institutional competence to resolve the particular type
of issue presented, such as the constitutionality of the
statute it is enforcing. The third circumstance is
where resort to the administrative remedy would
occasion undue prejudice.
Tacitly acknowledging the DEA’s historic
delays and disinclination to reschedule cannabis, the
Second Circuit recognized that “undue delay by the
agency might make applicable each of the three
exceptions to exhaustion.” (App.20a). In light of the
DEA’s dilatory track record with respect to
rescheduling petitions, the court took the
extraordinary step of retaining jurisdiction “to take
whatever action may become appropriate … if the
DEA fails to act promptly” if and when the Petitioners
filed their scheduling petition. (App.21a).
However, this was not the result required by
McCarthy. Petitioners should have been excused from
exhausting remedies, and their constitutional claims
should have been heard. The law does not require
Petitioners to waste countless resources and time
mired in a years-long process on yet another petition
doomed to fail before having their constitutional
claims heard. As the Second Circuit recognized,
Petitioners’ very life and liberty interests depend on
having those claims timely heard and resolved. The
appropriate forum is not an administrative agency
charged primarily with the enforcement of criminal
laws, but rather an Article III court. Petitioners

16
understandably declined to resign themselves to
further administrative futility before the DEA, and
now petition this Court for certiorari.
This case falls squarely within each of the three
circumstances described by this Court militating
against sending the Petitioner back to the agency:
•

Exhaustion is futile because the DEA has
denied or rejected each of the 10 prior
rescheduling petitions, most recently just
months prior to filing this Complaint,
and the Schedule I status of cannabis
prevents this or any Petitioner from
gathering the medical and scientific data
the DEA and FDA require.

•

The DEA’s scheduling process is
intended on its face to evaluate the
medical efficacy and safety of the drug at
issue, not to entertain constitutional
claims.

•

The DEA’s rescheduling process is
plainly incapable of preventing the
current
and
ongoing
irreparable
deprivation of Petitioners’ constitutional
rights.

Futility
Exhaustion is unnecessary if it would be futile,
either because agency decisionmakers are biased or
because the agency has already determined the issue.

17
The DEA has determined the issue, no less than 10
times to date. The Second Circuit found this
consideration inapplicable because the Attorney
General and Director of the DEA named in the
Complaint no longer serve in these capacities.
Petitioners allege a decades-long pattern of bias and
animus motivating the enactment of the CSA and the
practices of the agency from inception to the present
time, not the isolated statements of individual officials
at a single point in time.
Petitioners’ Complaint detailed the long and
unsuccessful history of petitions to reschedule
cannabis, as well as the anti-cannabis bias of the DEA,
its leaders past and present, and the then-Attorney
General.
Since the CSA was enacted in 1970, the DEA
has been entertaining rescheduling petitions for the
past fifty years on a virtually continuous basis and has
rejected each one. Irrespective of the merits of the
DEA’s decisions, it is plain the DEA is disinclined to
change its position, at least in the absence of
substantial new research that the DEA itself prohibits
researchers from undertaking.
The DEA has erected a classic Catch-22,
Kafkaesque state of affairs that forever consigns
cannabis to Schedule I status unless this Court steps
in and exercises jurisdiction. According to the DEA,
cannabis cannot be rescheduled because it has not
been adequately researched for the FDA to conclude
that it is effective and safe. But cannabis cannot be
properly researched to the satisfaction of the DEA and

18
the FDA because to do so would violate the very law
Petitioners and many others have sought to change
through the administrative process of petitioning to
reschedule cannabis – for the past fifty years – without
success.
No medical institution that receives or seeks
federal funding is willing to sponsor and undertake
the high-quality clinical studies of cannabis the DEA
and FDA demand because of the significant risk and
catastrophic consequence of losing the many streams
of federal funding on which they rely. Hospitals
cannot afford to jeopardize the Medicare, Medicaid,
and many other streams of federal funds they receive
by engaging in clinical research activity that requires
them to procure and dispense a Schedule I drug in
violation of the CSA.
Likewise, colleges and universities cannot
afford to sponsor this research and risk losing the
billions of dollars in research grants, student financial
aid, and other forms of federal financial assistance
upon which they rely. Moreover, most research
hospitals and research universities are 501(c)(3)
nonprofit organizations that cannot afford to
jeopardize the tax-exempt status upon which they
have erected billion-dollar institutions by allowing
researchers to properly evaluate the medical efficacy
and safety of cannabis.
Most vexing of all for the Petitioners, (as well as
the patients, doctors and researchers who want to
engage in this much-needed research), the federal
agency requiring this research to reclassify cannabis

19
is the very same agency that vigorously wields the
CSA and threat of enforcement action to prevent that
research from being conducted. That threat is real:
DOJ actively usurps the Funding Riders through
administrative subpoenas and unwarranted antitrust
scrutiny of cannabis companies. If research
institutions were to engage in the research demanded
by the DEA rescheduling process, they would subject
themselves to prosecution and/or suspension and
debarment from federal programs.
Perhaps the most damning evidence of the
futility of sending the Petitioners back to once again
endure the Sisyphean task of the DEA rescheduling
process is the federal government’s own patent
application in 1999 entitled “Cannabinoids as AntiOxidants
and
Neuroprotectants.”
(App.289a).
Notwithstanding the DEA’s 2016 denials based on the
FDA’s conclusions that cannabis has no medical use or
efficacy, the same Department of Health and Human
Services (“HHS”) upon which the DEA and Attorney
General are required to rely in judging the efficacy of
cannabis, applied for and in 2003 received Patent No.
6,630,507 B1 from the USPTO.
Despite the
Government’s own contention to the USPTO in 1999
that cannabis compounds have medical uses for
purposes of securing intellectual property rights, the
DEA and FDA have been unwilling to concede these
same facts for purposes of rescheduling petitions.
The Second Circuit erroneously found
exhaustion to be “sensible” because it would protect
agency authority, promote judicial efficiency, and
allow the agency to apply its expertise, but ignored the

20
long history of DEA denials, and especially the DEA’s
most recent petition denials in 2016. The DEA has had
fifty years to correct the quite evident flaws of the
temporary legislative classification of cannabis.
Instead, the DEA has used each opportunity to erect
further barriers to relief and to frustrate the very
research needed to properly evaluate the legislative
classification.
Requiring Petitioners to file yet another
rescheduling petition at this juncture constitutes the
very essence of futility.
Lack of Remedy/Competence
Second, exhaustion is unnecessary where the
administrative process would be incapable of granting
adequate relief. The Second Circuit erred in
concluding that Petitioners wish to pursue
reclassification of cannabis, and thus, they must avail
themselves of the DEA’s administrative process. That
is not the claim Petitioners made, nor the relief
Petitioners sought.
Petitioners do not claim
“developments in medical research and government
practice should lead to the reclassification of
marijuana.” (App.13a). The Second Circuit dismissed
the Complaint after rewriting and recharacterizing it,
rather than taking the claims as pled by Petitioners.
Any fair reading of Petitioners’ Complaint
reveals that their claim is not that there have been
new medical or scientific developments since the 2016
denials, but that the very enactment of the CSA in the
1970s and the subsequent administration of it by the

21
DEA are unconstitutional. Petitioners allege the
Government has been motivated by anti-drug bias and
racial animus. They claim that they have been
personally injured and deprived of their rights to
federal benefits, to petition their government, and to
travel. Petitioners seek to prove that the agency
charged with administering the CSA has been biased,
and in being so, has abused its wide-ranging
administrative powers and fearsome criminal powers
to forever consign cannabis to Schedule I status.
These sorts of factual claims, and the
constitutional consequences, are not at all suited for
determination by the very agency Petitioners accuse
of a fifty-year history of bias and animus. In our
system of checks and balances, Petitioners’ claims are
properly heard only by the judiciary.
Petitioners do not seek to reschedule cannabis.
Rather, they seek to invalidate the CSA’s provisions
with regard to cannabis and enjoin its enforcement. As
such, no administrative remedy can afford them the
relief they seek.
The DEA’s scheduling process is designed to
evaluate the medical value and safety of cannabis, not
the constitutionality of the CSA or of the DEA’s
actions. Petitioners’ constitutional claims are not
within the institutional competence of the DEA
petitioning process. The DEA and Attorney General’s
track record is clear: they do not believe the CSA or
their actions have been unconstitutional. Indeed, they
so argued in the courts below here.

22
Resolution of the constitutional violations and
deprivations alleged in the Complaint, such as the
racial animus underlying enactment of the CSA, is
more properly the province of the courts than of a law
enforcement agency that has derived its funding by
prosecution of thousands of individuals for violations
of the CSA and the fact many of those convictions
would be jeopardized were it to accept Petitioners’
constitutional challenges.
Undue Prejudice
Third, exhaustion is unnecessary “where
pursuing agency review would subject plaintiffs to
undue prejudice. … In particular, ‘an unreasonable or
indefinite timeframe for administrative action’ may
sufficiently prejudice plaintiffs to justify a federal
court taking a case prior to the exhaustion of
administrative remedies.” McCarthy, 503 U.S. at 14647. Here, while the Second Circuit was more
charitable, allowing that irreparable injury flowing
from delay incident to exhausting remedies militates
in favor of waiving exhaustion, it erroneously
concluded that despite the “apparently dire situation
of some of the Plaintiffs,” they are not injured because
they are able to obtain their “life-saving medication.”
The Second Circuit missed the forest for the
trees. Petitioners’ irreparable injury is not that they
cannot receive their medication currently; their
present and ongoing injury is the violation of their
constitutional rights to travel on federal lands and to
petition the government, among others, for injuries
that are irremediable except by a judicial declaration

23
freeing them of the criminal consequences of the
Schedule I status of cannabis and enjoining DEA
enforcement.
As eloquently detailed by Petitioners in their
Petition, medical cannabis patients cannot access
certain federally provided healthcare services. They
may not administer life-saving medication at home if
they live on federal or tribal lands or in federally
subsidized housing. Many schools, hospitals and social
service institutions that receive federal funds prohibit
or strictly limit patients from possessing or using their
medically necessary cannabis in institutional settings
because of the fear of prosecution or loss of funding for
violating the CSA. See e.g., Brown v. Woods Mullen
Shelter/Bos. Pub. Health Comm’n., 2017 WL 4287909
(Mass. Super. Aug. 28, 2017) (expulsion from homeless
shelter due to state-legal medically prescribed
marijuana); Albuquerque Pub. Sch. v. Sledge, 2019
WL 3755954 (D.N.M. Aug. 8, 2019) (disabled
kindergartner denied access to school due to medical
cannabis); Nation v. Trump, 2020 WL 3410887 (9th
Cir. June 22, 2020) (medical cannabis patient evicted
from public housing). Their rights to travel with their
medically necessary cannabis onto or across federal
property and to petition their federal representatives
are severely inhibited by the Schedule I status of
cannabis. Rehaif v. U.S., 139 S.Ct. 2191, 2211 (2019)
(“In a State that chooses to legalize marijuana,
possession is wrongful [] if the defendant is on federal
property”) (citation omitted).
State-licensed
companies are subject to civil RICO liability for
operating businesses in violation of the CSA,
notwithstanding state authorization and the Federal

24
Riders that prohibit criminal prosecution of the
predicate acts under the CSA. Safe Streets Alliance v.
Hickenlooper, 859 F.3d 865 (10th Cir. 2017).
Acknowledging the DEA’s long delays, the
Second Circuit held that “long delays cast doubt on the
appropriateness of requiring exhaustion.” (App.20a,
citing Gibson v. Berryhill, 411 U.S. 564, 575 n.14
(1973)). The Second Circuit held out the prospect that
“undue delay by the agency might make applicable
each of the three exceptions to exhaustion. [U]ndue
delay, if it in fact results in catastrophic health
consequences, could make exhaustion futile.
Moreover, the relief the agency might provide could,
because of undue delay, become inadequate. And
finally, and obviously, Plaintiffs could be unduly
prejudiced by such delay.” Id.
The futility of petitioning the DEA is evident in
light of its fifty-year history of denials, including the
two denials issued immediately preceding the filing of
Petitioners’ Complaint. The DEA is not competent to
resolve Petitioners’ constitutional claims, and
Petitioners are deprived daily of their core life and
liberty interests. The Second Circuit erred in
requiring Petitioners to exhaust their remedies before
the DEA.

25
II.

CERTIORARI SHOULD BE GRANTED
TO RESOLVE CONFLICTING POLICIES
AND IMPLEMENTATIONS BY THREE
FEDERAL DEPARTMENTS.

Certiorari is appropriate because the federal
government, through its various departments and
agencies, is addressing medical cannabis in
inconsistent and contradictory ways. That creates
chaos in public policy and in legal implementation. By
granting certiorari, the Court can reconcile policy and
implementation with the Constitution, and benefit the
public.
The CSA requires the Attorney General to rely
on HHS for medical and scientific determinations in
cannabis rescheduling petitions. 18 U.S.C. § 811(b).
Based on research at the National Institutes of Health
(“NIH”), HHS filed a U.S. Patent Application in 1999
entitled “Cannabinoids as Anti-Oxidants and
Neuroprotectants.” The federal patent system is
grounded in the Constitution (Article I Section 8
clause 8); it is highly credible, objective, and rigorous,
and plays a major role in bringing medical innovation
forward commercially for the public good. Further, the
patent literature is a highly valuable and accessible
repository of scientific and technical innovation.
The patent was issued in 2003 by the USPTO,
an agency of the Department of Commerce, as U.S.
Patent No. 6,630,507. (App.289a). The independent
actions of these two cabinet-level Departments
directly contradict DEA findings that cannabis has no
medical use or efficacy. Both NIH and the USPTO

26
have a long tradition of careful deliberation and sound
managerial practices. NIH is performing its role,
driving basic research, and bringing medical
innovation forward to the public. The USPTO is
performing its role by rationally, objectively, and
rigorously examining patent applications and
awarding patents for inventions that meet their
quality criteria.
The inventors on U.S. Patent 6,630,507 were
leading scientists, and one of them (Axelrod) was a
Nobel Prize winner. The science behind U.S. Patent
6,630,507 was included in a broad area of research
that began in the 1970s, and ultimately yielded the
concept that biochemicals such as neurotransmitters,
hormones, and drugs typically exert their action by
way of binding to specific chemical receptors
throughout the body.
In the abstract of U.S. Patent 6,630,507, which
clearly describes a science-based medical treatment,
HHS represented to USPTO, and USPTO accepted its
claim, that cannabinoids found in cannabis have
particular application in limiting neurological damage
following stroke and trauma and in treating
Alzheimer’s and Parkinson’s diseases and HIV
dementia:
Cannabinoids have been found to have
antioxidant properties, unrelated to
NMDA receptor antagonism. This new
found property makes cannabinoids
useful in the treatment and prophylaxis
of wide variety of oxidation associated

27
diseases, such as ischemic, age-related,
inflammatory and autoimmune diseases.
The cannabinoids are found to have
particular
application
as
neuroprotectants, for example in limiting
neurological damage following ischemic
insults, such as stroke and trauma, or in
the treatment of neurodegenerative
diseases, such as Alzheimer's disease,
Parkinson's disease and HIV dementia.
(App.290a) (emphasis added).
Some twenty-one years after the filing of the
U.S. Patent 6,630,507, the reported data and
conclusions remain unchallenged, and indeed have
served as an opening for further development of
cannabinoid compounds for medical treatments.
Cannabinoid research and patenting activity for
medical use has been distributed about equally among
three areas: (1) receptors and ligands, (2)
pharmaceutical composition (including formulation,
bioavailability), and (3) disease treatments. Diseases
identified as treatment targets include psychological
conditions (anxiety, depression), arthritis, asthma,
inflammatory diseases, neurological and brain
disease, nausea, and epilepsy. The most active entities
now involved in development of cannabinoid for
medical use are mid-sized pharmaceutical companies.
Based on the work of NIH, HHS has officially
asserted the medical utility of cannabis, and the
Department of Commerce, through the USPTO, has
reviewed and accepted the claims of HHS and select

28
other applicants who are actively researching and
filing patents for medical uses of cannabis. Yet, the
DEA perpetually and arbitrarily refuses to recognize
the medical utility of cannabis in the rescheduling
process. Aside from affirming the futility of the DEA
rescheduling process, the conflicting agency
approaches underscore the need for this Court to
exercise jurisdiction and resolve these conflicts that
subject Petitioners to ongoing and severe
constitutional harm.
CONCLUSION
This Court should grant certiorari to bring
clarity and coherence to this regulatory area in order
to relieve Petitioners of constitutional harm. Because
classification of cannabis as a Schedule I drug
prevents precisely the research needed to satisfy the
prerequisites for rescheduling under the CSA, further
administrative process is futile. Moreover, because the
DEA refuses to accept the conclusions of HHS, NIH
and USPTO that cannabis has medical value, conflicts
endure at the federal level, causing Petitioners harm.
INCBA, on behalf of attorneys who themselves are
subject to criminal prosecution, disciplinary
proceedings, and significant professional risks for
advising compliant participants in the state-legalized
cannabis industry, join Petitioners in respectfully
requesting that the Court grant the Petition for Writ
of Certiorari.

29
Respectfully submitted,
PAUL P. JOSEPHSON
DUANE MORRIS LLP
1940 Route 70 East
Cherry Hill, NJ 08003
(856) 874-4235

ppjosephson@duanemorris.com

ROBERT M. PALUMBOS
Counsel of Record
DUANE MORRIS LLP
30 S. 17th Street
Philadelphia, PA 19103
(215) 979-1111

rmpalumbos@duanemorris.com

Counsel for Amicus Curiae
September 14, 2020

